<html>
<title> - Rules of Procedure of the Joint Committee of Congress on the Library Adopted, June 25, 1997 [GRAPHIC] [TIFF OMITTED] CONGRESS.#13 One Hundred Fifth Congress U.S. HOUSE OF REPRESENTATIVES WASHINGTON, DC 20515</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


                                     

 
                           Rules of Procedure

                                 of the

                            Joint Committee

                       of Congress on the Library

                         Adopted, June 25, 1997

                 [GRAPHIC] [TIFF OMITTED] CONGRESS.#13


                       One Hundred Fifth Congress

                     U.S. HOUSE OF REPRESENTATIVES

                          WASHINGTON, DC 20515

                               ---------

                      U.S. GOVERNMENT PRINT OFFICE

43-658                       WASHINGTON : 1997



               JOINT COMMITTEE OF CONGRESS ON THE LIBRARY
                 United States House of Representatives
                       One Hundred Fifth Congress

House Members                        Senate Members
WILLIAM M. THOMAS, California        TED STEVENS, Alaska
  Chairman                             Vice-Chairman
BOB NEY, Ohio                        JOHN WARNER, Virginia
VERN EHLERS, Michigan                THAD COCHRAN, Mississippi

                                 ------                                

CAROLYN KILPATRICK, Michigan         DANIEL PATRICK MOYNIHAN, New York
SAM GEDJENSON, Connecticut           DIANNE FEINSTEIN, California

                                 ------                                

                             STAFF CONTACTS

Reynold Schweickhardt                Christine Ciccone
House                                Senate



                            C O N T E N T S

                              ----------                              
Rule
                                                                   Page
  1. General Provisions...............................................1
  2. Regular and Special Meetings.....................................1
  3. Open Meetings....................................................2
  4. Records and Roll Calls...........................................2
  5. Proxies..........................................................2
  6. Power to Sit and Act; Subpoena Power.............................3
  7. Quorums..........................................................3
  8. Amendments.......................................................3
  9. Hearing Procedures...............................................3
 10. Broadcasting of Committee Hearings and Meetings..................5
 11. Travel of Members and Staff......................................5
 12. Powers and Duties of Subunits of the Committee...................6
 13. Other Procedures and Regulations.................................6
 14. Designation of Clerk of the Committee............................6




  RULES OF PROCEDURE OF THE JOINT COMMITTEE OF CONGRESS ON THE LIBRARY

                      [One Hundred Fifth Congress]

                               Rule No. 1


                           GENERAL PROVISIONS


    (a) The Rules of the House are the rules of the Joint 
Committee on the Library so far as applicable, except that a 
motion to recess from day to day is a motion of high privilege 
in committees.
    (b) The committee is authorized at any time to conduct such 
investigations and studies as it may consider necessary or 
appropriate in the exercise of its responsibilities under House 
Rule X and (subject to the adoption of expense resolutions as 
required by House Rule XI, clause 5) to incur expenses 
(including travel expenses) in connection therewith.
    (c) The committee is authorized to have printed and bound 
testimony and other data presented at hearings held by the 
committee, and to distribute such information by electronic 
means. All costs of stenographic services and transcripts in 
connection with any meeting or hearing of the committee shall 
be paid from the appropriate House account.
    (d) The committee's rules shall be published in the 
Congressional Record as soon as possible following the 
committee's organizational meeting in each odd numbered year.


                               Rule No. 2


                      REGULAR AND SPECIAL MEETINGS


    (a) The regular meeting date of the Joint Committee on the 
Library shall be the second Wednesday of every month when the 
House is in session in accordance with clause 2(b) of House 
Rule XI. Additional meetings may be called by the chairman as 
he may deem necessary or at the request of a majority of the 
members of the committee in accordance with clause 2(c) of 
House Rule XI. The determination of the business to be 
considered at each meeting shall be made by the chairman 
subject to clause 2(c) of House Rule XI. A regularly scheduled 
meeting need not be held if there is no business to be 
considered.
    (b) If the chairman of the committee is not present at any 
meeting of the committee, or at the discretion of the chairman, 
the vice chairman of the committee shall preside at the 
meeting. If the chairman and vice chairman of the committee are 
not present at any meeting of the committee, the ranking member 
of the majority party who is present shall preside at the 
meeting.

                               Rule No. 3


                             OPEN MEETINGS


    As required by clause 2(g), of House Rule XI, each meeting 
for the transaction of business of the committee, shall be open 
to the public except when the committee, in open session and 
with a quorum present, determines by roll call vote that all or 
part of the remainder of the meeting on that day shall be 
closed to the public because disclosure of matters to be 
considered would endanger national security, would compromise 
sensitive law enforcement information, or would tend to defame, 
degrade or incriminate any person, or otherwise would violate 
any law or rule of the House: provided, however, that no person 
other than members of the committee, and such congressional 
staff and such departmental representatives as they may 
authorize, shall be present in any business session which has 
been closed to the public.

                               Rule No. 4


                         RECORDS AND ROLL CALLS


    (a) The result of each roll call vote in any meeting of the 
committee shall be transmitted for publication in the 
Congressional Record as soon as possible, but in no case later 
than two legislative days following such roll call vote, and 
shall be made available for inspection by the public at 
reasonable times at the committee offices, including a 
description of the amendment, motion, order or other 
proposition; the name of each member voting for and against; 
and the members present but not voting.
    (b) All committee hearings, records, data, charts, and 
files shall be kept separate and distinct from the 
congressional office records of the memberserving as chairman 
of the committee; and such records shall be the property of Congress 
and all members of Congress shall have access thereto.
    (c) House records of the committee which are at the 
National Archives shall be made available pursuant to House 
Rule XXXVI. The chairman of the committee shall notify the 
ranking minority party member of any decision to withhold a 
record pursuant to the rule, and shall present the matter to 
the committee upon written request of any committee member.
    (d) To the maximum extent feasible, the committee shall 
make its publications available in electronic form.

                               Rule No. 5

                                PROXIES

    No vote by any member in the committee may be cast by 
proxy.

                               Rule No. 6

                  POWER TO SIT AND ACT; SUBPOENA POWER

    (a) For the purpose of carrying out any of its functions 
and duties under House Rules X and XI, the committee is 
authorized, (subject to subparagraph (b)(1) of this paragraph):
    (1) to sit and act at such times and places within the 
United States, whether the House is in session, has recessed, 
or has adjourned, and to hold such hearings; and
    (2) to require, by subpoena or otherwise, the attendance 
and testimony of such witnesses and the production of such 
books, records, correspondence, memorandums, papers, and 
documents; as it deems necessary. The chairman of the 
committee, or any member designated by the chairman, may 
administer oaths of any witness.
    (b)(1) A subpoena may be authorized and issued by the 
committee in the conduct of any investigation or series of 
investigations or activities, only when authorized by a 
majority of the members voting, a majority being present. The 
power to authorize and issue subpoenas under subparagraph 
(a)(2) may be delegated to the chairman of the committee 
pursuant to such rules and under such limitations as the 
committee may prescribe. Authorized subpoenas shall be signed 
by the chairman of the committee or by any member designated by 
the committee.
    (2) Compliance with any subpoena issued by the committee 
may be enforced only as authorized or directed by the House.

                               Rule No. 7

                                QUORUMS

    For the purposes of taking any action other than issuing a 
subpoena, closing meetings, promulgating committee orders, or 
changing the rules of the committee, the quorum shall be one-
third of the members of the committee. For purposes of taking 
testimony and receiving evidence, two members shall constitute 
a quorum.

                               Rule No. 8

                               AMENDMENTS

    Any amendment offered to any pending matter before the 
committee must be made available in written form when requested 
by any member of the committee. If such amendment is not 
available in written form when requested, the chair will allow 
an appropriate period of time for the provision thereof.

                               Rule No. 9

                           HEARING PROCEDURES

    (a) The chairman, with the concurrence of the vice 
chairman, in the case of hearings to be conducted by the 
committee, shall make public announcement of the date, place, 
and subject matter of any hearing to be conducted on any 
measure or matter at the earliest possible date. The clerk of 
the committee shall promptly notify the Daily Digest Clerk of 
the Congressional Record as soon as possible after such public 
announcement is made.
    (b) Unless excused by the chairman, each witness who is to 
appear before the committee shall file with the clerk of the 
committee, at least 48 hours in advance of his or her 
appearance, a written statement of his or her proposed 
testimony and shall limit his or her oral presentation to a 
summary of his or her statement.
    (c) When any hearing is conducted by the committee upon any 
measure or matter, the minority party members on the committee 
shall be entitled, upon request to the chairman by a majority 
of those minority members before the completion of such 
hearing, to call witnesses selected by the minority to testify 
with respect to that measure or matter during at least one day 
of hearings thereon.
    (d) Committee members may question a witness only when they 
have been recognized by the chairman for that purpose, and only 
for a 5-minute period until all members present have had an 
opportunity to question the witness. The 5-minute period for 
questioning a witness by any one member can be extended as 
provided by House Rules. The questioning of a witness in 
committee hearings shall be initiated by the chairman, followed 
by the ranking minority party member and all other members 
alternating between the majority and minority. In recognizing 
members to question witnesses in this fashion, the chairman 
shall take into consideration the ratio of the majority to 
minority members present and shall establish the order of 
recognition for questioning in such a manner as not to 
disadvantage the members of the majority. The chairman may 
accomplish this by recognizing two majority members for each 
minority member recognized.
    (e) The following additional rules shall apply to hearings:
    (1) The chairman at a hearing shall announce in an opening 
statement the subject of the investigation.
    (2) A copy of the committee rules and this clause shall be 
made available to each witness.
    (3) Witnesses at hearings may be accompanied by their own 
counsel for the purpose of advising them concerning their 
constitutional rights.
    (4) The chairman may punish breaches of order and decorum, 
and of professional ethics on the part of counsel, by censure 
and exclusion from the hearings; and the committee may cite the 
offender to the House for contempt.
    (5) If the committee determines that evidence or testimony 
at a hearing may tend to defame, degrade, or incriminate any 
person, it shall:
    (A) afford such person an opportunity voluntarily to appear 
as a witness;
    (B) receive such evidence or testimony in executive 
session; and
    (C) receive and dispose of requests from such person to 
subpoena additional witnesses.
    (6) Except as provided in subparagraph (f)(5), the chairman 
shall receive and the committee shall dispose of requests to 
subpoena additional witnesses.
    (7) No evidence or testimony taken in executive session may 
be released or used in public sessions without the consent of 
the committee.
    (8) In the discretion of the committee, witnesses may 
submit brief and pertinent sworn statements in writing for 
inclusion in the record. The committee is the sole judge of the 
pertinence of testimony and evidence adduced at its hearing.
    (9) A witness may obtain a transcript copy of his testimony 
given at a public session or, if given at an executive session, 
when authorized by the committee.

                              Rule No. 10

            BROADCASTING OF COMMITTEE HEARINGS AND MEETINGS

    Whenever any hearing or meeting conducted by the committee 
is open to the public, those proceedings shall be open to 
coverage by television, radio, and still photography, as 
provided in clause 3 of House Rule XI, subject to the 
limitations therein.

                              Rule No. 11

                      TRAVEL OF MEMBERS AND STAFF

    (a) Consistent with the primary expense resolution and such 
additional expense resolutions as may have been approved, the 
provisions of this rule shall govern travel of committee 
members and staff. Travel for any member or any staff member 
shall be paid only upon the prior authorization of the 
chairman. Travel may be authorized by the chairmanfor any 
member and any staff member in connection with the attendance of 
hearings conducted by the committee and meetings, conferences, and 
investigations which involve activities or subject matter under the 
general jurisdiction of the committee. Before such authorization is 
given there shall be submitted to the chairman in writing the 
following:
    (1) the purpose of the travel;
    (2) the dates during which the travel will occur;
    (3) the locations to be visited and the length of time to 
be spent in each;
    (4) the names of members and staff seeking authorization.
    (b)(1) In the case of travel outside the United States of 
members and staff of the committee for the purpose of 
conducting hearings, investigations, studies, or attending 
meetings and conferences involving activities or subject matter 
under the jurisdiction of the committee, prior authorization 
must be obtained from the chairman. Before such authorization 
is given, there shall be submitted to the chairman, in writing, 
a request for such authorization. Each request, which shall be 
filed in a manner that allows for a reasonable period of time 
for review before such travel is scheduled to begin, shall 
include the following:
    (A) the purpose of the travel;
    (B) the dates during which the travel will occur;
    (C) the names of the countries to be visited and the length 
of time to be spent in each;
    (D) an agenda of anticipated activities for each country 
for which travel is authorized together with a description of 
the purpose to be served and the areas of committee 
jurisdiction involved; and
    (E) the names of members and staff for whom authorization 
is sought.
    (2) At the conclusion of any hearing, investigation, study, 
meeting or conference for which travel outside the United 
States has been authorized pursuant to this rule, members and 
staff attending meetings or conferences shall submit a written 
report to the chairman covering the activities and other 
pertinent observations or information gained as a result of 
such travel.
    (c) Members and staff of the committee performing 
authorized travel on official business shall be governed by 
applicable laws, resolutions, or regulations of the House and 
of the Committee on House Oversight pertaining to such travel.

                            Rule No. 12

         POWERS AND DUTIES OF SUBUNITS OF THE COMMITTEE

    The chairman of the committee is authorized to establish 
appropriately named subunits, such as task forces, composed of 
members of the committee, for any purpose, measure or matter; 
one member of each such subunit shall be designated chairman of 
the subunit by the chairman of the committee. All such subunits 
shall be considered ad hoc subcommittees of the committee. The 
rules of the committee shall be the rules of any subunit of the 
committee, so far as applicable, or as otherwise directed by 
the chairman of the committee. Each subunit of the committee is 
authorized to meet, hold hearings, receive evidence, and to 
require, by subpoena or otherwise, the attendance and testimony 
of such witnesses and the production of such books, records, 
correspondence, memorandums, papers, and documents, as it deems 
necessary, and to report to the full committee on all measures 
or matters for which it was created. Chairmen of subunits of 
the committee shall set meeting dates with the approval of the 
chairman of the full committee, with a view toward avoiding 
simultaneous scheduling of committee and subunit meetings or 
hearings wherever possible. It shall be the practice of the 
committee that meetings of subunits not be scheduled to occur 
simultaneously with meetings of the full committee. In order to 
ensure orderly and fair assignment of hearing and meeting 
rooms, hearings and meetings should be arranged in advance with 
the chairman through the clerk of the committee.

                              Rule No. 13

                    OTHER PROCEDURES AND REGULATIONS

    The chairman of the full committee may establish such other 
procedures and take such actions as may be necessary to carry 
out the foregoing rules or to facilitate the effective 
operation of the committee.

                              Rule No. 14

                 DESIGNATION OF CLERK OF THE COMMITTEE

    For the purposes of these rules and the Rules of the House 
of Representatives, the chairman designated staff person, of 
the committee shall act as the clerk of the committee.

                                <greek-d>
</pre></body></html>
